                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     The EPA Needs to Improve
                     Timeliness and Documentation
                     of Workforce and Workload
                     Management Corrective Actions

                     Report No. 13-P-0366                    August 30, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Patrick Gilbride
                                                   Randy Holthaus
                                                   Lawrence Gunn
                                                   Kevin Lawrence




Abbreviations

AFC           Audit Follow-Up Coordinator
EPA           U.S. Environmental Protection Agency
FY            Fiscal Year
MATS          Management Audit Tracking System
OAM           Office of Acquisition Management
OARM          Office of Administration and Resources Management
OCFO          Office of the Chief Financial Officer
OIG           Office of Inspector General
RMD           Resource Management Directive




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                               13-P-0366
                                                                                                        August 30, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review               The EPA Needs to Improve Timeliness and
Within the past 3 years, the
                                     Documentation of Workforce and Workload
U.S. Environmental Protection        Management Corrective Actions
Agency’s Office of Inspector
General issued three audit
                                      What We Found
reports containing
recommendations designed to
improve the agency’s workforce       The EPA did not complete the majority of the corrective actions relating to
and workload management.             workload and workforce management within planned timeframes. Further, some
We conducted this audit to           corrective actions were delayed by more than 6 months and the EPA did not
determine whether the EPA            notify the OIG of those delays, as required by EPA Manual 2750. The Office of
effectively implemented              Management and Budget Circular A-50 requires agencies to establish systems to
corrective actions for issues        assure the timely implementation of corrective actions. Complex corrective action
identified in OIG reports relating   plans and implementing new workload and workforce management initiatives
to the agency’s                      contributed to delays in completing the corrective actions. Program staff and
workforce and workload.              managers from the Office of Administration and Resources Management and the
                                     Office of the Chief Financial Officer informed us they were not aware of the
Deficiencies in workforce and        Manual 2750 requirement to notify the OIG if actions are delayed 6 months or
workload management have             more. Delaying corrective actions relating to workforce and workload
been a longstanding issue at the     management resulted in unfinished improvements to the EPA’s management of
EPA. Recent budget cuts due to       its limited resources.
sequestration have highlighted
the need to improve workforce        We also found that the EPA did not update the status for several of the corrective
and workload management.             actions we reviewed. EPA Manual 2750 requires audit follow-up coordinators to
                                     manage audit data in the agency’s Management Audit Tracking System. This
This report addresses the            includes entering and updating corrective actions and their associated due dates
following EPA Goal or                for each corrective action. However, the AFCs and other program staff did not
Cross-Cutting Strategy:              believe it was necessary to update the status for completed actions since the
                                     completion date had been added in a separate field. There were some instances
                                     where the AFC could not update the status field because program staff had not
 Strengthening EPA’s
                                     provided certification that it was complete or had not provided a new planned
  workforce and capabilities.
                                     date. If the EPA does not update MATS with current information, the OIG and
                                     other stakeholders do not have accurate information available regarding the
                                     status of corrective actions.

                                      Recommendations and Planned Corrective Actions

                                     We recommend that the chief financial officer: (1) send notifications to all the
For further information, contact     EPA’s action officials informing them that when corrective action dates will be
our Office of Congressional and      extended by more than 6 months they must provide the OIG with written
Public Affairs at (202) 566-2391.    notification that includes the new milestone dates, and (2) ensure that training
                                     provided to staff on EPA Manual 2750 emphasizes that AFCs should update all
The full report is at:
www.epa.gov/oig/reports/2013/        fields in MATS and that program staff should provide timely information to AFCs.
20130830-13-P-0366.pdf               EPA agreed with both recommendations and proposed corrective actions that we
                                     believe will address our findings.
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                  THE INSPECTOR GENERAL




                                            August 30, 2013

MEMORANDUM

SUBJECT:       The EPA Needs to Improve Timeliness and Documentation of Workforce and
               Workload Management Corrective Actions
               Report No. 13-P-0366

FROM:          Arthur A. Elkins Jr.

TO:            Maryann Froehlich, Acting Chief Financial Officer

This is our report on the subject audit conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. This report contains findings that describe the problems the
OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position.

Action Required
The agency concurred with both of our recommendations. We accept EPA’s response and planned
corrective actions and no further response is needed. We will post this report to our website at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Richard Eyermann, acting
assistant inspector general for the Office of Audit, at (202) 566-0565 or Eyermann.Richard@epa.gov;
or Patrick Gilbride, product line director, at (303) 312-6969 or Gilbride.Patrick@epa.gov.
The EPA Needs to Improve Timeliness and Documentation of                                                                    13-P-0366
Workforce and Workload Management Corrective Actions




                                  Table of Contents 


Chapters
   1    Introduction ...........................................................................................................     1


                Purpose ..........................................................................................................   1      

                Background ....................................................................................................      1      

                Scope and Methodology .................................................................................              2      


   2    The EPA Did Not Complete Some Corrective Actions in a Timely Manner ....... 4


                Corrective Actions Should Be Taken Promptly ................................................                         4

                The EPA Did Not Complete Some Corrective Actions Timely .........................                                    4

                The EPA Did Not Notify the OIG on Two Audits When Corrective
                      Actions Would Be Completed Beyond 6 Months of Planned Dates ......                                             5

                Improving Workload and Workforce Management Is Important .......................                                     6

                Conclusions......................................................................................................    7

                Recommendation .............................................................................................         7

                Agency Comments and OIG Evaluation ...........................................................                       7


   3    The EPA Did Not Always Record Corrective Actions Correctly in MATS .......... 8 


                The EPA Did Not Always Document the Correct Status for
                     Corrective Actions .................................................................................. 8 

                The EPA Needs to Ensure Audit Follow-Up Status Is Accurately Updated...... 9 

                Conclusions...................................................................................................... 9 

                Recommendation ............................................................................................. 10 

                Agency Comments and OIG Evaluation ........................................................... 10 


   Status of Recommendations and Potential Monetary Benefits................................... 11 




Appendices
   A	   Summary of Three OIG Reports on Workload and Workforce 

        Management ............................................................................................................ 12 


   B    A
        	 gency Response ................................................................................................... 15 


   C    D
        	 istribution .............................................................................................................. 18 

                                   Chapter 1

                                    Introduction
Purpose
            From 1999 through 2010 the U.S. Environmental Protection Agency’s authorized
            full-time positions decreased from 18,366 to 17,417. Given the long-term federal
            budget crisis, along with the more recent sequestration budget cuts, this trend is
            likely to continue. Due to an inability to hire additional staff, it is crucial that the
            EPA make meaningful improvements to its workload management.

            Within the past 3 years, the Office of Inspector General issued three audit reports
            containing recommendations designed to improve the agency’s workforce and
            workload management. The purpose of this follow-up audit was to determine
            whether the EPA effectively implemented corrective actions for issues identified
            in OIG reports relating to the agency’s workforce and workload.

Background
            Deficiencies in workforce and workload management have been a longstanding
            issue at the EPA and remain an important area for the agency to address. In 2002,
            the EPA acknowledged human capital as an agency internal control weakness. In
            2008, the EPA removed human capital from the list of agency weaknesses and
            added the more specific topic of workforce planning as an office-level weakness
            for the Office of the Chief Financial Officer. However, our 2012 report to the
            agency on its key management challenges and internal control weaknesses noted
            that the EPA still has not developed analytical methods, nor does it collect data
            needed, to measure its workload and the corresponding workforce levels
            necessary to carry out that workload. Therefore, we elevated workforce planning
            to an agency management challenge in July 2012.

            EPA Manual 2750, Audit Management Procedures, is the EPA’s key framework
            for audit resolution. This manual assigns responsibilities and establishes agency
            policies and procedures for audit management and follow-up. It specifies the chief
            financial officer as the designated agency audit follow-up official. In compliance
            with the Office of Management and Budget Circular A-50, Audit Followup, the
            agency audit follow-up official is responsible for agencywide audit resolution and
            ensuring that action officials implement corrective actions. The agency audit
            follow-up coordinator is in the OCFO and supports the agency audit follow-up
            official. The agency AFC is responsible for maintaining and operating the
            agency’s audit tracking system for OIG audits, coordinating with other office
            audit follow-up coordinators across the agency and training them on audit follow-
            up procedures. Office AFCs are responsible for helping office staff understand the



13-P-0366                                                                                          1
            audit tracking system and managing OIG audit data in the agency’s audit tracking
            system, including:

               	 Entering corrective actions and associated due dates per the corrective
                   action plan.

               	 Tracking the implementation of corrective actions and ensuring that
                   extensions to due dates are obtained from the action official as
                   appropriate.

               	 Ensuring that the action official notifies the OIG in writing, with a copy to
                   the agency management official and any office AFC(s) involved, if
                   completion of any corrective action will be extended by more than
                   6 months past the date agreed to by the agency and the OIG.

               	 Entering past due comments into the agency’s audit tracking system as
                   needed prior to March 31 and September 30 for semiannual reporting.

               	 Entering the final action date into the agency’s audit tracking system once
                   a certification memo has been received, as well as the date of the
                   certification memo and the name and title of the signer.

            The EPA uses its Management Audit Tracking System to track and document
            audit resolution. OCFO is the primary office within the EPA responsible for
            administering MATS. According to OCFO’s quality assurance plan, Ensuring the
            Quality of Data in MATS, “OCFO administers MATS and uses it to track
            information agency-wide on audit corrective actions, including financial
            information and reasons for missed deadlines.” Regarding the role of office
            AFCs, the quality assurance plan states, “Designated Audit Follow-up
            Coordinators in program and regional offices then use MATS to track such key
            dates as the 180-day milestone for agreeing on corrective actions in response to
            OIG final report recommendations and the 365-day milestone for implementing
            corrective actions. Office AFCs are responsible for entering accurate, complete,
            and verifiable information into MATS.”

Scope and Methodology
            We conducted our audit from November 2012 to June 2013 in accordance with
            generally accepted government auditing standards. Those standards require that
            we obtain sufficient, appropriate evidence to provide a reasonable basis for our
            findings and conclusions based on our evaluation objectives. We believe that the
            evidence we obtained during this audit provides a reasonable basis for our
            findings and conclusions.

            We interviewed staff and managers from the OCFO’s Office of Budget; and the
            Office of Administration and Resources Management’s Office of Human


13-P-0366                                                                                      2
            Resources, Office of Grants and Debarment, Office of Acquisition Management,
            and Office of Policy and Resources Management.

            We reviewed the following OIG reports associated with the EPA’s workforce and
            workload management issued from October 2010 to September 2011:

                   	 EPA’s Contracts and Grants Workforce May Face Future Workload
                      Issues, Report No. 11-R-0005, October 25, 2010.

                   	 EPA Needs to Strengthen Internal Controls for Determining Workforce
                      Levels, Report No. 11-P-0031, December 20, 2010.

                   	 EPA Needs Workload Data to Better Justify Future Workforce Levels,
                      Report No. 11-P-0630, September 14, 2011.

            Each report contained recommendations to address the EPA’s workforce and/or
            workload management. We obtained and reviewed the EPA’s corrective action
            plans associated with each of the subject audit reports. We also reviewed MATS
            reports associated with the corrective actions for each of the audit reports.
            We obtained the MATS reports in October 2012 just prior to starting the audit.
            A description of the recommendations and corrective actions associated with these
            reports is in appendix A.

            In addition to the subject reports and corresponding corrective action plans, we
            reviewed EPA Manual 2750, Audit Management Procedures; OMB Circular
            A-50, Audit Followup; and other background and criteria relevant to the audit,
            including:

                  MATS User Manual. 

                  MATS Quality Assurance Plan.

                  OARM’s Federal Managers’ Financial Integrity Act Assurance Letter. 

                  OCFO’s Federal Managers’ Financial Integrity Act Assurance Letter. 

                  OIG’s 2012 Management Challenges Letter to EPA. 





13-P-0366                                                                                      3
                                   Chapter 2

 The EPA Did Not Complete Some Corrective Actions 

                in a Timely Manner

            The EPA did not complete the majority of its corrective actions relating to
            workload and workforce management in a timely manner. Further, for two audits
            we reviewed containing recommendations for OCFO, they did not notify the OIG
            when corrective actions were delayed more than six months. OMB Circular A-50
            requires agencies to establish systems to assure the timely implementation of
            corrective actions that address audit recommendations. EPA Manual 2750
            requires the EPA to notify the OIG in writing when a corrective action will be
            delayed by more than 6 months. For these audits, the EPA’s staff did not notify
            the OIG when corrective actions were significantly delayed because they were not
            aware of that requirement. Improving workforce and workload management is
            important. Considering the present economic and budgetary climate and the
            increased need for the federal government to work with the utmost efficiency, it is
            important that the EPA continue to work on improving its workload and
            workforce management processes.

Corrective Actions Should Be Taken Promptly
            OMB Circular A-50 provides the policies and procedures agencies are required to
            use when responding to reports issued by inspectors general. The circular states,
            “Audit [follow-up] is an integral part of good management, and is a shared
            responsibility of agency management officials and auditors. Corrective action
            taken by management on resolved findings and recommendations is essential to
            improving the effectiveness and efficiency of Government operations. Each
            agency shall establish systems to assure the prompt and proper resolution and
            implementation of audit recommendations.”

            EPA Manual 2750, revised on September 28, 2012, also contains requirements
            relating to the timeliness of corrective actions. The manual requires the EPA to
            notify the appropriate assistant inspector general in writing if corrective action
            dates will be missed by more than 6 months. The action official must also
            document the reason(s) and revised dates in MATS.

The EPA Did Not Complete Some Corrective Actions Timely
            The EPA completed the two corrective actions associated with OIG report
            11-R-0005, EPA’s Contracts and Grants Workforce May Face Future Workload
            Issues, within the originally planned timeframes. However, the EPA extended the
            dates for completing 10 of the 17 corrective actions associated with the other two
            reports (see appendix A). For example, in OIG report 11-P-0630, we
            recommended that OCFO conduct a pilot project requiring the EPA’s


13-P-0366                                                                                        4
            organizations to collect and analyze workload data on key project activities. We
            also recommended that OCFO use information learned from the pilot and the
            ongoing contracted workload study to issue guidance to the EPA’s program
            offices on workload analysis. The EPA agreed to address these recommendations
            by the end of fiscal year 2012. However, the EPA has not completed these
            corrective actions and does not plan to do so until the end of FY 2013.

            Some actions were delayed because of the complexity of the actions. The AFC for
            OCFO explained that it can be very challenging to accurately input information
            into MATS when the corrective actions cited in the agency’s corrective action
            plan are complex. For example, in response to recommendations in OIG report
            11-P-0630, personnel from OCFO’s Office of Budget spent time benchmarking
            other organizations and piloting processes with the EPA’s program offices.
            During that process, the Office of Budget identified a process for collecting and
            analyzing workload data and proposed this approach to the Deputy Administrator.
            To test this approach and ensure cost effectiveness, the Deputy Administrator and
            the Office of Budget agreed it would be best to pilot this approach prior to
            implementing it nationwide. Though this was a reasonable business decision, the
            additional piloting delayed corrective actions.

            Further, the EPA has not conducted workload analysis in over 20 years. It has
            therefore been difficult for the EPA to develop accurate timeframes for
            completing corrective actions without careful planning and identifying detailed
            actions that will contribute to effectively addressing recommendations.

            Additionally, some of OARM’s corrective actions were late because OARM
            agreed to complete the actions in conjunction with updates to Resources
            Management Directives 2520, U.S. EPA’s Administrative Control of
            Appropriated Funds, which was also delayed. In OIG report 11-P-0031,
            recommendation 3-1 required OARM to amend its workforce planning guidance
            in conjunction with RMD 2520 and the annual planning and budget memoranda.
            To address this recommendation, OARM agreed to amend workforce planning
            guidance to request that program and regional offices provide relevant workforce
            information as part of the agency’s annual budget process. OFCO delayed
            completion of its RMD 2520 update until the end of FY 2013. However, rather
            than continuing to delay its corrective action, OARM completed workforce
            planning guidance documents. Therefore, in spite of delays to RMD 2520, OARM
            worked proactively and found a way to complete its corrective action.

The EPA Did Not Notify the OIG on Two Audits When Corrective
Actions Would Be Completed Beyond 6 Months of Planned Dates
            For two audits, OCFO did not notify the OIG when it delayed completion of some
            its corrective actions by more than 6 months. For example, in OIG report
            11-P-0031, we recommended that OCFO amend RMD 2520 and the annual
            planning and budget memoranda to require using workload analysis to help


13-P-0366                                                                                      5
            determine employment levels needed to accomplish agency goals. To address that
            recommendation, OCFO agreed to amend RMD 2520 to more fully describe
            workload planning needs. OCFO originally planned to complete that corrective
            action by the end of February, 2012. However, OCFO still has not completed the
            update to RMD 2520 and has delayed that planned completion date to the end of
            FY 2013.

            The EPA did not provide the OIG with written notification of the delay in
            providing an update to RMD 2520. OCFO did not notify the OIG that some
            actions would be more than 6 months late because staff and managers were not
            aware of that requirement. The AFC for OCFO was not certain but thought that
            notification should have been sent to the OIG prior to making changes. However,
            that did not occur for the delays in our subject reports. The deputy director of
            OCFO’s Office of Budget informed us she was not aware of any method other
            than MATS where offices communicate this information (changes to dates or
            actions) to the OIG. Even though OARM did not have any corrective actions
            more than 6 months late, some of its staff were not aware of this requirement
            either. The AFC for OARM stated she is not aware of any formal communications
            regarding corrective actions outside of what she puts into MATS.

Improving Workload and Workforce Management Is Important
            Considering the present economic and budgetary climate and the increased need
            for the federal government to work with the utmost efficiency, it is important that
            the EPA continue to work on improving its workload and workforce management
            processes. The EPA has yet to implement any agencywide workload analysis
            guidance or methodology. Given the significance of this issue and the need for
            progress agencywide, we elevated this issue from an internal control weakness to
            an agency management challenge in our 2012 Management Challenges Letter to
            EPA.

            The corrective actions the EPA established to address the recommendations in our
            prior reports focus on important improvements needed to better manage the
            EPA’s limited resources. Extending the completion of those corrective actions has
            resulted in a delay to these improvements. Further, we were not aware of the
            delayed corrective actions because the EPA did not notify us when it extended
            milestones by more than 6 months.

            The EPA informed us that the agency has already addressed the specificity of
            corrective action plans through guidance in the updated EPA Manual 2750.
            Program staff and managers informed us that the guidance contained in the
            updated manual provides clear instructions on preparing quality corrective action
            plans. They also informed us that staff training is already underway on changes
            and additions to EPA Manual 2750.




13-P-0366                                                                                       6
Conclusions

            Audit follow-up is a shared responsibility between the EPA and the OIG and is an
            important component of sound program management. To help us monitor
            corrective actions, it is important for the EPA to notify us of significant delays
            that will exceed 6 months. To increase the effectiveness of its corrective action
            process, EPA should ensure that the training administered on the updated EPA
            Manual 2750 includes instruction on preparing concise corrective actions and
            notifying the OIG of any significant delays in planned completion dates.

Recommendation
            We recommend that the chief financial officer:

               1. 	 Notify all the EPA’s action officials that when they extend planned
                    completion dates for corrective actions by more than 6 months they must
                    provide the OIG with written notification that includes the new milestone
                    dates.

Agency Comments and OIG Evaluation
            The EPA concurred with recommendation 1 and provided three corrective actions it
            has taken or plans to take. First, OCFO held a quarterly conference call with
            agency AFCs in June 2013 regarding the audit finding. Second, OCFO plans to
            develop and provide MATS training to AFCs by December 31, 2013. Third, OCFO
            plans to also conduct management accountability reviews to ensure audit follow-up
            documentation and data in MATS is accurate. OCFO plans to complete such
            reviews within all regional and headquarters offices by September 30, 2015.

            We concur with the EPA’s corrective actions associated with recommendation 1
            and consider the recommendation resolved with corrective action pending.




13-P-0366                                                                                       7
                                   Chapter 3

   The EPA Did Not Always Record Corrective Actions 

                  Correctly in MATS

            The EPA did not update the status in MATS for several of the corrective actions
            we reviewed. EPA Manual 2750 specifies that AFCs manage audit data in MATS,
            including entering and updating corrective actions and associated due dates for
            each corrective action. MATS status was not updated because the AFCs and other
            program staff did not believe it was necessary for completed actions since the
            completion date had been added in a separate field. There were also instances
            where the AFC could not update the status field because program staff had not
            provided certification that it was complete or a new planned completion date was
            established. If MATS is not updated with current information, the OIG and other
            stakeholders do not have assurance that progress is being made to implement
            corrective action in a timely manner.

The EPA Did Not Always Document the Correct Status for
Corrective Actions
            According to OCFO’s quality assurance plan, OCFO relies on program and
            regional offices to carry out corrective actions to which they have agreed in
            response to audit recommendations. The plan specifies that offices should
            document activities and report progress in MATS. OCFO administers MATS and
            uses it to track information agencywide on corrective actions.

            EPA Manual 2750 establishes policies and procedures, and assigns agency
            responsibilities for audit management and follow-up. The manual specifies that
            the agency AFC is responsible for maintaining and operating the agency’s audit
            tracking system. The agency AFC is also responsible for coordinating across the
            agency with other offices’ AFCs as necessary to track audit reports from issuance
            through completion of corrective actions. Additionally, the agency AFC also
            trains office AFCs on audit follow-up procedures so that they can educate action
            officials in their offices. Office AFCs are responsible for managing audit data in
            MATS, including entering and updating corrective actions and associated due
            dates per the corrective action plan.

            Based on MATS reports from October 2012, the status of several corrective
            actions was listed as “unspecified” for two of the three reports we reviewed: OIG
            Report 11-P-0031 and OIG Report 11-R-0005 (see appendix A). “Unspecified” is
            the default status in MATS when the AFC does not input any information into a
            status field. For example, the status of corrective actions associated with OIG
            report 11-P-0031 recommendations 4-1, 4-2, and 4-3 was listed as “Unspecified.”
            However, we know from supporting documentation provided by OARM during



13-P-0366                                                                                    8
            our review that OARM completed those corrective actions. In February 2013, we
            brought this to the attention of the AFC for OARM. Subsequently, that AFC
            updated MATS to show the current status of each of those corrective actions as
            complete.

The EPA Needs to Ensure Audit Follow-Up Status Is
Accurately Updated
            The status of several corrective actions was not updated for two different reasons.
            First, OARM staff informed us they did not see the importance of updating the
            status field in MATS for completed corrective actions when the completion date
            had been entered. They believed the completion date adequately signified
            completion. However, stakeholders that review MATS may not understand this.
            To avoid confusion, AFCs should update all data fields within MATS.

            A second reason the status field in MATS was not updated was because the AFC
            did not have enough information to determine the actual status. Two of OCFO’s
            corrective actions were labeled “unspecified.” Both of those corrective actions
            related to updating the OIG on the status of efforts to improve workload analysis.
            Although the AFC believed those corrective actions were complete, she could not
            label them as such because program staff had not provided her with certification
            that the corrective actions had been completed. Program staff and managers
            should ensure AFCs have all of the information they need to keep MATS accurate
            and up to date.

            Audit follow-up is essential to good management and is a shared responsibility
            between the EPA and the OIG. If MATS is not updated with current information,
            the OIG does not have an accurate picture of the status of corrective actions.
            Further, OCFO relies on data contained in MATS to prepare semiannual reports
            and to compile an end-of-year audit follow-up report. The EPA includes this report
            in its annual Performance and Accountability Report to Congress and the President.
            Thus, the quality of the EPA’s annual report to Congress depends on the accuracy
            and completeness of data that agency AFCs enter in MATS.

            As mentioned in the previous chapter, the EPA informed us that it is already
            providing training on the updated version of EPA Manual 2750. The EPA should
            ensure that training emphasizes the importance of updating the status of all
            corrective actions in MATS.

Conclusions

            MATS is the primary way the EPA reports the status of corrective actions to the
            OIG. Although it seems clear to AFCs and others responsible for overseeing data
            in MATS that a corrective action is complete when the completion date is entered,
            it may not seem clear to otherstakeholders who review the system. An unspecified
            status gives the appearance that a corrective action may not be complete. This


13-P-0366                                                                                     9
            could lead to misinterpretations or incorrect conclusions about the status of
            corrective actions. To avoid this problem, AFCs need to ensure they regularly
            complete all fields in MATS with accurate and up-to-date information.

Recommendation

            We recommend that the chief financial officer:

               2. Ensure that training provided on EPA Manual 2750 emphasizes that
                  (a) AFCs should update all fields in MATS, and (b) program staff and
                  managers should provide timely information to AFCs to ensure that they
                  can update all fields within MATS.

Agency Comments and OIG Evaluation
            The EPA concurred with recommendation 2 and provided two corrective actions it
            has taken or plans to take. First, OCFO held a quarterly conference call with
            agency AFCs in June 2013 to address the audit finding. Second, OCFO plans to
            develop and provide MATS training to agency AFCs by December 31, 2013.

            We concur with the EPA’s corrective actions associated with recommendation 2
            and consider the recommendation resolved with corrective action pending.




13-P-0366                                                                                   10
                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                           POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                         BENEFITS (in $000s)

                                                                                                               Planned
 Rec.     Page                                                                                                Completion   Claimed    Agreed To
 No.       No.                            Subject                         Status1      Action Official           Date      Amount      Amount

   1        7     Notify all the EPA’s action officials that when they      O       Chief Financial Officer   09/30/2015
                  extend planned completion dates by more than
                  6 months they must provide the OIG with written
                  notification that includes the new milestone dates.

   2       10    Ensure that training provided on EPA Manual 2750           O       Chief Financial Officer   12/31/2013
                 emphasizes that (a) AFCs should update all fields in
                 MATS, and (b) program staff and managers should
                 provide timely information to AFCs to ensure that they
                 can update all fields within MATS.




O = recommendation is open with agreed-to corrective actions pending
C = recommendation is closed with all agreed-to actions completed
U = recommendation is unresolved with resolution efforts in progress




13-P-0366                                                                                                                                    11
                                                                                                                     Appendix A

         Summary of Three OIG Reports on Workload and 

                    Workforce Management 


          Recommendations and corrective actions for OCFO are highlighted in blue.
          Recommendations and corrective actions for OARM are highlighted in yellow.


EPA Needs to Strengthen Internal Controls for Determining Workforce Levels,
Report No. 11-P-0031, issued December 20, 2010

                                                                                 Planned
                                                                                Dates from    Planned     Completed
                                                                                                                          Status in
           Recommendations                         Corrective Actions           Corrective   Dates from   Dates from
                                                                                                                           MATS
                                                                                  Action      MATS         MATS
                                                                                 Report
2-1. Amend the Resource Management              1-1. Amend RMD 2520 to          2/29/2012    9/30/2012    00-00-0000    Delayed
Directive 2520 and the annual planning          more fully describe workload                                            (over 1
and budget memoranda to require using           planning needs.                                                         year until
workload analysis to help determine                                                                                     9/30/2013)
employment levels needed to accomplish
Agency goals.
2-2. Require the Agency to complete a           2-1. Receive Final Results of   9/30/2011    9/30/2011    9/28/2011     Complete
workload analysis for all critical functions    Workload Survey/Bench                                                   (on time)
to coincide with developing the strategic       marking Study.
plan.
                                                2-2. Begin Quarterly Progress   Not in       10/31/2011   00-00-0000    Unspecified
                                                Updates to the OIG.             Corrective
                                                                                Action
                                                                                Report
                                                2-3. Review Final Study         11/30/2011   11/30/2011   5/31/2012     Complete
                                                Results, Results from Region                                            (6 months late)
                                                1 and 6 pilots, and external
                                                variables analysis to develop
                                                Workload Analyses Options.
                                                2-4. Circulate Draft Workload   2/29/2012    2/28/2012    5/31/2012     Complete
                                                Analyses Options for                                                    (3 months late)
                                                Comment.
                                                2-5. Present Options and        3/31/2012    3/31/2012    6/1/2012      Complete
                                                Recommendation to Senior                                                (2 months late)
                                                Leadership.
                                                2-6. Option Approved by         4/28/2012    4/28/2012    6/1/2012      Complete
                                                Senior Leadership                                                       (1 month late)
                                                (DECISION POINT).
                                                2-7. Next Steps.                6/30/2012    6/30/2012    6/30/2012     Complete
                                                                                                                        (on time)
                                                2-8. Update OIG on Next         Not in       9/30/2012    00-00-0000    Unspecified
                                                Steps and Major Milestones.     Corrective
                                                                                Action
                                                                                Report
3-1. Amend its workforce planning               3-1. Amend OARM's               2/29/2012    2/29/2012    8/30/2012     Complete
guidance (in conjunction with Resource          workforce planning guidance                                             (on time -
Management Directive 2520 and the               to request program and                                                  MATS was
annual planning and budget memoranda)           regional offices provide the                                            incorrect.
to require that headquarters program            number of positions by                                                  This action
offices and regions provide the number of       Mission Critical Occupation                                             was actually
positions for the current fiscal year in each   (MCO) and linkage to goals,                                             completed
MCO (see Appendix D), and the number            where applicable, as part of                                            2/29/2012.)
projected to accomplish planned Agency          the Agency's annual budget
goals.                                          process (completion




13-P-0366                                                                                                                            12
                                                                               Planned
                                                                              Dates from    Planned     Completed
                                                                                                                       Status in
          Recommendations                        Corrective Actions           Corrective   Dates from   Dates from
                                                                                                                        MATS
                                                                                Action      MATS         MATS
                                                                               Report
                                              contingent upon OCFO's
                                              update RMD 2520 and annual
                                              planning and budget
                                              memoranda).
3-2. Report the MCO data gathered in          3-2. Incorporate only current   12/15/2011   12/15/2011   12/15/2011   Complete
conjunction with Resource Management          year (baseline) MCO data                                               (on time)
Directive 2520 and OB’s annual planning       gathered as part of the
and budget memoranda, within the Human        Agency's annual budget
Capital Management Report.                    process into the Human
                                              Capital (HC) Management
                                              Report.
4-1. Upon development of the Agency’s         4-1. Revise Strategic           2/29/2012    2/29/2012    8/28/2012    Unspecified
Strategic Plan, require Agency program        Workforce Plan to improve                                              (almost 6
and regional offices to provide local-level   the linkage with the Agency's                                          months late)
workforce-planning data, including current    Strategic Plan and describe
year and potential shifts in the numbers of   how workforce planning will
MCO positions needed to meet strategic        help the Agency achieve its
goals.                                        strategic goals.
4-2. Summarize the local-level workforce-     4-2. Summarize MCO data         2/29/2012    2/29/2012    8/30/2012    Unspecified
planning data needed to achieve each EPA      for planning purposes and                                              (6 months late)
strategic goal.                               linkage to strategic goals.
4-3. Provide summarized local-level           4-3. Update workforce           2/29/2012    2/29/2012    8/28/2012    Unspecified
workforce-planning data, including data       planning guidance and/or                                               (almost 6
sorted by programmatic goal level, to OB.     Strategic Workforce Plan, and                                          months late)
                                              summarize MCO data for
                                              planning purposes and
                                              linkage to strategic goals.



EPA Needs Workload Data to Better Justify Future Workforce Levels,
Report No. 11-P-0630, issued September 14, 2011

                                                                               Planned
                                                                              Dates from    Planned     Completed
                                                                                                                       Status in
          Recommendations                        Corrective Actions           Corrective   Dates from   Dates from
                                                                                                                        MATS
                                                                                Action      MATS         MATS
                                                                               Report
1. We recommend that the Chief Financial      1-1. Create a workload          9/30/2012    5/31/2012    5/31/2012    Complete
Officer conduct a pilot project requiring     analysis model for air and                                             (on time)
EPA organizations to collect and analyze      water permitting programs.
workload data on key project activities.
                                              1-2. Conduct Analyses of        9/30/2012    1/31/2013    00-00-0000   Adhering
                                              Grants and Superfund Cost
                                              Recovery.
2. We recommend that the Chief Financial      2-1. Revise RMD 2520 to         9/30/2012    9/30/2013    00-00-0000   Adhering
Officer use information learned from the      incorporate workload
pilot and the ongoing contracted workload     planning guidance.
study to issue guidance to EPA program
offices on:
a. How to collect and analyze workload
data
b. The benefits of workload analysis
c. How this information should be used to
prepare budget requests




13-P-0366                                                                                                                        13
EPA’s Contracts and Grants Workforce May Face Future Workload Issues,
Report No. 11-R-0005, issued: October 25, 2010

                                                                                  Planned
                                                                                 Dates from    Planned     Completed
                                                                                                                          Status in
          Recommendations                         Corrective Actions             Corrective   Dates from   Dates from
                                                                                                                           MATS
                                                                                   Action      MATS         MATS
                                                                                  Report
2-1. OARM should direct OAM and OGD            2-1. OGD will review EPA's        9/30/2011    11/30/2011   9/1/2011     Unspecified
to establish procedures to review the          performance against                                                      (1 month
metrics for Recovery Act and non-              applicable Recovery Act/non-                                             early)
Recovery Act contract and grant activities     Recovery Act metrics for
with senior managers for the period ending     grant activity beginning with
September 30, 2010, and quarterly              the fourth quarter of FY 2010
thereafter. For any metrics that do not        and for each quarter thereafter
meet performance goals, senior managers        through the end of FY
should examine the reasons the goals were      2011.Also, On February 1,
not met, and where a control weakness is       2011, OGD will have a kick-
revealed, develop a plan with corrective       off meeting with Senior
actions, dates, and responsible offices to     Resource Officials covering
ensure that the goals are met in the future.   the fourth quarter of FY 2010
If goals are not attained due to resource      and the first quarter of FY
limitations, OAM and OGD should work           2011.
with OCFO to reexamine the distribution
of Recovery Act management resources.
3-1. We recommend that the Assistant           3-1. OAM is in the process of     9/30/2011    9/30/2011    9/1/2011     Unspecified
Administrator for Administration and           implementing a Balanced                                                  (1 month
Resources Management, direct OAM to            Scorecard Initiative including                                           early)
develop and implement organization-wide        performance measurement
performance measures to better manage its      and performance management
activities.                                    programs.




13-P-0366                                                                                                                         14
                                                                                Appendix B


                               Agency Response
                                        July 29, 2013


MEMORANDUM


SUBJECT:      EPA’s Response to the Office of Inspector General Draft Report, Project Number
              OA-FY13-0047, “EPA Needs to Improve Timeliness and Documentation of
              Workforce and Workload Management Corrective Actions,” dated June 18, 2013

FROM:         Nanci E. Gelb, Principal Deputy Assistant Administrator
              Office of Administration and Resources Management

              David A. Bloom, Acting Deputy Chief Financial Officer
              Office of the Chief Financial Officer

TO:           Richard Eyermann, Acting Assistant Inspector General
              Office of Audit

Thank you for the opportunity to comment on the draft report, “EPA Needs to Improve
Timeliness and Documentation of Workforce and Workload Management Corrective Actions,”
Project Number OA-FY13-0047. We appreciate your staff’s efforts to continue to promote the
agency’s need for timely reporting in our corrective action tracking system. Since the report
addressed both workforce and workload challenges, we have coordinated our review of the OIG
report and its recommendations.

AGENCY’S OVERALL POSITION

The EPA recognizes the need to more clearly communicate progress implementing OIG
workforce and workload recommendations. Our offices concurred with the recommendations
presented and have already begun to strengthen training and coordination to do so. The EPA
agrees with the OIG on completing corrective actions in a timely fashion, notifying the OIG
when corrective actions are delayed more than six months, and recording completed corrective
actions accurately in the agency’s Management Audit Tracking System.




13-P-0366                                                                                      15
AGENCY’S RESPONSES TO REPORT RECOMMENDATIONS 


No.         Recommendation                  High-Level               Estimated Completion
                                       Intended Corrective                   Date
                                            Actions(s)
1     Notify all the EPA’s         1.1 Hold conference call with   Completed 6/18/2013;
      action officials that when   agency Audit Follow-up          (Quarterly conference calls
      they extend planned          Coordinators                    are ongoing)
      completion dates for
      corrective actions by more
      than 6 months, they must     1.2 Develop training for AFC    Q1 FY 2014
      provide the OIG with         on using MATS
      written notification that
      includes the new             1.3 Conduct Management          Ongoing
      milestone dates              Accountability Reviews to       (OCFO completed reviews
                                   review audit follow-up          of Region 1, OAR, and
                                   documentation and QA/QC         OW in June 2013; EPA
                                   data in MATS                    expects to complete the full
                                                                   round of reviews of all
                                                                   regional and HQ offices
                                                                   every 3 years, e.g. Q4 FY
                                                                   2015)
                                   2.1 Hold conference call with   Completed 6/18/2013;
2     Ensure that training         agency Audit Follow-up          (Quarterly conference calls
      provided on EPA Manual       Coordinators                    are ongoing)
      2750 emphasizes that (a)
      AFCs should update all
      fields in MATS and (b)
      program staff and
                                   2.2 Develop training for AFC    Q1 FY 2014
      managers should provide
                                   on using MATS
      timely information to
      AFCs to ensure that they
      can update all fields
      within MATS


CONTACT INFORMATION

If you have workload questions, please contact Carol Terris, Acting Director, Office of
Budget/OCFO at (202) 564-0533 or Hamilton Humes, senior advisor, Office of Budget/OCFO at
(202) 564-2835. For workforce questions, please contact John Taylor, Director, Office of Human
Capital Management Division/OHR/OARM, at (202) 564-0948 or Alan Bogus at (202) 564-
0228. For questions regarding MATS data, please contact Bernadette Dunn, the agency audit
follow-up coordinator at (202) 564-4963.



13-P-0366                                                                                   16
CONCLUSION

We remain committed to partnering with your staff on findings and recommendations that help
protect human health and the environmental and support the agency’s efforts to do so. We are
always looking for innovative ideas to improve the ability of the EPA’s programs to strengthen
resource stewardship while also achieving better environmental results. We recommend this
report be closed on issuance.

cc: 	Josh Baylson, Associate Chief Financial Officer, OCFO
     Susan Kantrowitz, Director, Office of Human Resources, OARM
     Angela Freeman, Deputy Director, Office of Human Resources, OARM
     Carol Terris, Acting Director, Office of Budget, OCFO
     John Showman, Director, Office of Policy and Resources Management, OARM
     Steve Blankenship, Deputy Director, Office of Policy and Resources Management, OARM
     Jeanne Conklin, Acting Deputy Director, Office of Budget, OCFO
     John Taylor, Director, Office of Human Capital Management Division, OHR/OARM
     Diane Kelty, OCFO
     Debbie Rutherford, OCFO
     Kimberly Dubbs, OCFO
     Barbara Freggens, OCFO
     Hamilton Humes, OCFO
     Alan Bogus, OARM
     Debbi Hart, OARM




13-P-0366                                                                                        17
                                                                              Appendix C

                                   Distribution
Office of the Administrator
Deputy Administrator
Chief Financial Officer
Assistant Administrator for Administration and Resources Management
Deputy Chief Financial Officer
Principal Deputy Assistant Administrator for Administration and Resources Management
Director, Office of Budget, Office of the Chief Financial Officer
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Human Resources, Office of Administration and Resources Management
Director, Office of Grants and Debarment, Office of Administration and Resources Management
Director, Office of Acquisition Management, Office of Administration and
    Resources Management
Audit Follow-Up Coordinator, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Office of Administration and Resources Management




13-P-0366                                                                                18
